No. 20-1111
In The
Supreme Court of the United States
INTERNATIONAL ASSOCIATION OF BRIDGE, STRUCTURAL,
ORNAMENTAL AND REINFORCING IRON WORKERS, LOCAL 229, AFLCIO,
Petitioner,
v.
NATIONAL LABOR RELATIONS BOARD,
Respondent.
Petition for Writ of Certiorari
To the United States Court of Appeals
For the Ninth Circuit
CERTIFICATE OF COMPLIANCE
Undersigned counsel for Petitioner International Association of Bridge,
Structural, Ornamental and Reinforcing Iron Workers, Local 229, AFL-CIO, a
member of the Bar of this Court, certifies pursuant to Supreme Court Rule 33.1(h),
that the Reply Brief filed herewith complies with the word limitations in Rule
33.1(g)(iii). Excluding the portions of the brief exempted by Rule 33.1(d), the
Reply Brief contains

2,914

words.
:111)06/'\
David A. Rosenfeld

150414\1164638

